 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




CONNECTICUT PROPERLY OBLIGATED
 AND LIQUIDATED TARGETED FUNDS
   UNDER THE CHILD CARE AND
  DEVELOPMENT FUND PROGRAM



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                  Michael J. Armstrong
                                                Regional Inspector General

                                                       February 2013
                                                       A-01-12-02505
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                          INTRODUCTION

WHY WE DID THIS REVIEW

The Child Care and Development Fund (CCDF) provides discretionary funding for three targeted
funds, administered at the Federal level by the U.S. Department of Health and Human Services,
Administration for Children and Families (ACF) which are known as Infant and Toddler, Quality
Expansion, and School Age Resource and Referral funds. These targeted funds are used for
activities that improve the availability, quality, and affordability of childcare and to support the
administration of these activities. The funds are 100 percent federally funded. Previous Office of
Inspector General reviews found that one State did not always comply with Federal requirements
when claiming targeted funds for reimbursement. 1 Therefore, we have expanded our review of
these targeted funds to Connecticut.

OBJECTIVE

The objective of this review was to determine whether the Connecticut Department of Social
Services (State agency) complied with Federal requirements for the use of CCDF targeted funds for
Federal reimbursement for Federal fiscal years (FY) 2007 through 2009.

BACKGROUND

Under the CCDF program, States have considerable latitude in implementing and administering
their childcare programs. Each State must develop and submit to ACF for approval a State plan
that identifies the purposes for which CCDF funds will be expended for two grant periods (i.e., 2
FYs). Program requirements state that a State agency has 2 FYs to obligate CCDF funds and a
third FY to liquidate those funds. The following table shows the obligation and liquidation
periods for each FY covered by our review.

                          Table 1: Obligation and Liquidation Periods


                                Obligation Period Obligation Period Liquidation Period
              FY                   Start Date         End Date          End Date
              2007                  10/1/2006         9/30/2008         9/30/2009
              2008                  10/1/2007         9/30/2009         9/30/2010
              2009                  10/1/2008         9/30/2010         9/30/2011

The State plan must also designate a lead agency responsible for administering childcare
programs. In addition, States are required to report expenditures of targeted funds on the
quarterly Child Care and Development ACF-696 Financial Report (ACF-696 report), which is a
cumulative report for the FY.


1
 Review of Unexpended Infant and Toddler Targeted Funds and Quality Targeted Funds Claimed by the Iowa
Department of Human Services for Fiscal Years 1998–2003 (A-07-07-00231, issued August 21, 2008); Iowa
Improperly Claimed Some Child Care and Development Targeted Funds (A-07-11-03163, issued March 28, 2012).

Connecticut Properly Claimed Child Care and Development Targeted Funds (A-01-12-02505)                 1
As the lead agency in Connecticut, the State agency must oversee the expenditure of funds by
contractors, grantees, and other agencies of the State government to ensure that these entities
expend funds in accordance with Federal requirements. The State agency entered into contracts
with these entities; for each such contract, the funds were considered obligated with the
execution (that is, the signing) of the contract.

HOW WE CONDUCTED THIS REVIEW

We reviewed $5,959,252 of targeted fund expenditures claimed by the State agency for FYs
2007 through 2009. We did not perform a detailed review of the State agency’s internal controls
because our objective did not require us to do so. We limited our review to the controls related
to the obligation and liquidation of the targeted funds.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology, and Appendix B contains
details on the Federal requirements related to CCDF targeted funds.

We conducted fieldwork at the State agency in Hartford, Connecticut, from July through October
2012.

                                      RESULTS OF REVIEW

Of the $5,959,252 of CCDF targeted funds that we reviewed, the State agency complied with
Federal requirements for the obligation and use of the full amount of the targeted funds for FYs
2007 through 2009. Accordingly, this report contains no recommendations.




Connecticut Properly Claimed Child Care and Development Targeted Funds (A-01-12-02505)         2
                                                                                         APPENDIX A


APPENDIX A: SCOPE AND METHODOLOGY

SCOPE

We reviewed $5,959,252 of targeted fund expenditures claimed by the State agency for FYs
2007 through 2009. We did not perform a detailed review of the State agency’s internal controls
because our objective did not require us to do so. We limited our review to the controls related
to the obligation and liquidation of the targeted funds.

We conducted fieldwork at the State agency in Hartford, Connecticut, from July 2012through
October 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and program guidance, as well as State
        laws and the approved Connecticut CCDF State plans;

    •   reviewed the ACF-696 reports for FYs 2007 through 2009 to determine the amount of
        targeted funds that the State agency claimed;

    •   interviewed State agency staff responsible for preparing the ACF-696 reports to obtain an
        understanding of how the reports were prepared, how the targeted funds were reported,
        and what documentation was maintained to support expenditures on the reports

    •   reviewed the State agency’s contracts with contractors and other agencies of the
        Connecticut State government to determine the dates on which the contracts were signed
        in relation to the obligation requirements of the targeted funds for FYs 2007 through
        2009;

    •   reviewed the State agency’s payment dates to contractors and other agencies of the
        Connecticut State government in relation to liquidation requirements of the targeted
        funds for FYs 2007 through 2009;

    •   reviewed the State agency’s documentation used to prepare the ACF-696 reports;

    •   reviewed documentation submitted by contractors to the State agency in support of the
        expenditure of targeted funds; and

    •   discussed the results of our review with State agency officials on January 7, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



Connecticut Properly Claimed Child Care and Development Targeted Funds (A-01-12-02505)            3
                                                                                         APPENDIX A

based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Connecticut Properly Claimed Child Care and Development Targeted Funds (A-01-12-02505)           4
                                                                                         APPENDIX B


APPENDIX B: FEDERAL REQUIREMENTS RELATED TO CHILD CARE
AND DEVELOPMENT FUND TARGETED FUNDS

FUND OBLIGATION REGULATIONS

Federal regulations (45 CFR § 98.60(d)(1)) state: “Discretionary Fund allotments shall be
obligated in the fiscal year in which funds are awarded or in the succeeding fiscal year.
Unliquidated obligations as of the end of the succeeding fiscal year shall be liquidated within one
year.”

Federal regulations (45 CFR § 98.60(d)(7)) state that “[a]ny funds not obligated during the
obligation period specified in paragraph (d) of this section will revert to the Federal government.
Any funds not liquidated by the end of the applicable liquidation period specified in paragraph
(d) of this section will also revert to the Federal government.”


ACTIVITY REGULATIONS

Federal regulations (45 CFR § 98.16(h)) require that the approved CCDF State plan include
“… a description of the activities to provide comprehensive consumer education, to increase
parental choice, and to improve the quality and availability of child care, pursuant to 45 CFR
§ 98.51.”
Federal regulations (45 CFR §§ 98.51(a) and (b)) require that no less than 4 percent of the
aggregate funds be spent on activities to improve the quality of childcare and that the Lead
Agency describe in the CCDF State plan the activities it will fund under the quality activities
(which includes the targeted funds).




Connecticut Properly Claimed Child Care and Development Targeted Funds (A-01-12-02505)            5
